QUALITY OF SBA'S RECOVERY ACT DATA ON PUBLIC 

                  WEBSITES 





             Report Number: ROM 11-04 

             Date Issued: March 22, 2011 

            U.S. Small Business Administration
            Office Inspector General                                Memorandum
    To:     Jonathan I. Carver                                                              Date:      March 22, 2011
            Chief Financial Officer

            David Robbins
            Associate Administrator for Management and
            Administration

            Steven Smits
            Associate Administrator for the Office of Capital
            Access
            lsi Original Signed
 From:      Peter McClintock
            Deputy Inspector General

Subject: 	 Report on the Quality of SBA's Recovery Act Data on Public Websites
           ROM 11-04

   This report represents the results of our audit regarding the effectiveness of the Small Business
   Administration's (SBA) internal controls to ensure the quality of federal spending information
   that is made available to the public. The Office of Management and Budget (OMB) requires
   agencies to be accountable for the quality of federal spending information disseminated through
   public websites and to work to improve the quality and integrity of that information. 1

   Our audit objectives were to (1) determine the accuracy of American Recovery and
   Reinvestment Act of2009 (Recovery Act) contract awards, Microloans and Microloan technical
   assistance grants reported by SBA on public websites, and (2) assess the quality and
   completeness of information reported by recipients on the use of those funds in accordance with
   Section 1512 of the Recovery Act. We used the Recovery Accountability and Transparency
   Board's Recipient Reporting & Data Quality - Final Review Guide as a baseline to plan our
   audit.
   In a prior audit 2 we found that officials in the SBA's Division of Procurement and Grants
   Management (DPGM) had not adequately defined the review process it would use to identify
   material omissions andlor significant reporting errors in contractor recipient reports . We also
   found that officials in the Office of Capital Access (OCA) had not drafted a policy for reviewing



   10MB M-IO-06, Open Government Directive dated December 8, 2009 and OMB M-09-21 , implementing Guidance for the Reports on Use of
      Funds Pursuant to the American Recovery and Reinvestment Act of 2009 dated June 22, 2009.
   2 ROM 10-01 , SBA Readiness in Reviewing Recipient Reports on the Use ofRecovery Act Fu nds dated October 30, 2009
                                                                                                                                             2

the quality of Microloan intermediary 3 reports. We recommended that DPGM issue a procedural
notice defining its data quality review process for contractor recipient reports and OCA define its
process for evaluating the quality of data reported by Microloan intermediaries.
To determine the accuracy of Recovery Act award data reported by SBA, we interviewed
selected officials from DPGM, OCA and contractor personnel to gain an understanding of the
SBA's internal control processes, staff roles and responsibilities for ensuring data quality. We
also utilized computer assisted audit techniques to analyze and reconcile SBA Recovery Act
obligations, programs, and activities reported on public web sites such as USASpending.gov, 4
Federal Procurement Data System-Next Generation (FPDS.gov), and Recovery.gov. 5

To assess the quality and completeness of recipient-reported information, we reviewed federal
laws and regulations, and participated in walkthroughs with officials in DPGM, OCA and
contractor personnel. We also reviewed the Agency's processes and procedures for conducting
reviews to ensure that recipient reports are accurate, complete and timely pursuant to OMB
guidance and discussed these documents with the appropriate program officials. Finally, we
examined a judgmental sample of 10 recipient reports on FederalReporting.gov 6 for contractors,
10 Microloans, and 10 Microloan technical assistance grants to ensure that obvious errors did not
exist and to ensure that prime recipients reported on subrecipients. Our scope covered Recovery
Act awards executed between April 2009 and September 2010. We performed our fieldwork
between November 2010 and January 2011 in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States.

This audit found that while Recovery Act contract award obligations, Microloans and Microloan
technical assistance grants were reported to Recovery.gov in a relatively accurate manner, the
same information was materially underreported to USASpending.gov. Also, information reported
by recipients ofSBA's Recovery Act funds contained erroneous and/or inaccurate information
and did not include subrecipient information. Lastly DPGM officials did not provide adequate
oversight ofPanum Telecom LLC, the contractor it hired to perform their data quality reviews.
These deficiencies occurred because SBA did not have sufficient internal control processes to
provide reasonable assurance that reported information was correct. As a result, Recovery Act
information was misleading and SBA was not compliant with provisions of the Federal Funding
Accountability and Transparency Act of2006 (Transparency Act) and OMB guidance regarding
the quality and completeness of information reported on the use of Recovery Act funds. We are
making 12 recommendations to research and resolve discrepancies in reported information and to
establish and adequately deploy internal controls over the reporting of SBA award data.

SBA officials agreed with our findings and concurred with our recommendations. These officials
have already initiated action to address the recommendations.




3 lntennediaries are qualified nonprofit community-based lenders who, in turn, provide Microloans of up to $35,000 to local entrepreneurs and
   small business owners, in conjunction with technical assistance training.
4 USASpending.gov is OMB ' s response to meet the Transparency Act requirement. Data is obtained from FPDS.gov, which contains information

   about federal contract awards; and the Federal Assistance Award Data System (FAADSPlus), which contains infonnation about grant awards.
5 Recovery.gov is OMB 's website to track and report on Recovery Act spending.
6 FederalReporting.gov is the central government-wide data collection system for federal Agencies and recipients of federal awards under Section

    1512 of the Recovery Act. Recipients access FederalReporting.gov in order to fulfill their reporting obligations. Federal Agencies, prime
   recipients and sub recipients are required to submit data on a quarterly basis for grants, loans, and federally awarded contracts under the
   Recovery Act.
                                                                                                                                                  3

BACKGROUND

Award Data Reported to Public Websites

The Transparency Act required OMB to ensure the existence and operation of a single searchable
website for federal awards. Since January 2008, Federal agencies have been submitting federal
spending7 information to USAspending.gov. The Agency's contract and grant awards are created
in SBA's Contract Management System, PRISM, and transmitted into either FPDS.gov
(contracts and orders) or the Federal Assistance Award Database (F AADSPlus) (grants) at the
time of award. This award data is ultimately uploaded to USASpending.gov.

SBA Information Notice 0000-2094, Ensuring Accurate Procurement Data Reporting to the
Federal Procurement Data System-Next Generation (FPDS-NG) and Federal Assistance Award
Database (FAADSPlus) dated October 19,2009 emphasizes the need to establish reporting
procedures to ensure accurate and complete data in FPDS-NG and FAADSPlus. The notice
stipulates that timeliness, accuracy, and completeness of this data is critical and must be ensured.
Effective October 1,2010, and under an Agency reorganization, the procurement function was
split from DPGM and now reports to the Chief Financial Officer (CFO). Consequently, we
addressed the contract related recommendations in this report to the CFO.

Section 1512 - Recipient Reporting to FederalReporting.gov

Section 1512 of the Recovery Act requires each recipient of Recovery Act funds to report to
FederalReporting.gov, not later than 10 days after the end of each calendar quarter, certain
information regarding the use of those funds and detailed information on payments to vendors
and subcontractors. The use of Recovery Act funds should be transparent and reported clearly,
accurately, and in a timely manner. Federal agencies are required to perform data quality reviews
to identify material omissions and/or significant errors in the reported information and to notify
recipients of the need to make appropriate and timely changes. The detailed recipient reports are
to be made available to the public on the Recovery.gov website no later than 30 days following
the end of the quarter.

To provide its contractor recipient reporting quality control process, DPGM executed a contract
with Panum Telecom LLC. The contract included certain reporting and document requirements
that were to be submitted to the Chief ofDPGM. Capital Access hired two temporary employees
to perform its recipient reporting quality control processes.

RESULTS

DPGM Did Not Establish Adequate Internal Controls for Recovery Act Data on Public
Websites

While SBA accurately reported Recovery Act contract and grant award obligations to
Recovery.gov, such reporting to FPDS.gov and FAADSPlus was not consistent with obligations
reported to USASpending.gov for the same period. Specifically, Recovery.gov reflected contract




7   Federal award includes grants, sub-grants, loans, awards, cooperative agreements, contracts, subcontracts, purchase orders, task orders and
     delivery orders.
                                                                                                                                            4

award obligations totaling $34,450,121, 8 while USASpending.gov reflected contract award
obligations totaling only $12,822,978. 9 We identified 66 Recovery Act contract award
obligations totaling $21,627,140 that were not, but should have been, posted to
USASpending.gov. These awards are reflected in Appendix I: Recovery Act Contract Award
Obligations Not in USASpending.gov and FPDS.gov.

Also, 13 contract award obligations totaling $695,157 were reported to USASpending.gov and
FPDS.gov as Recovery Act awards in error. We confirmed these awards were erroneously
reported as Recovery Act because Recovery Act obligations were not used to fund the awards.
See Appendix II: Contract Awards Erroneously Reported to USASpending.gov and FPDS.gov
as Recovery Act.

Lastly, Recovery Act obligations for Microloan technical assistance grants reported to
Recovery.gov did not reconcile to obligations for Recovery Act Microloan technical assistance
grants reflected in USASpending.gov for the same period. Specifically, Recovery.gov reflects
grant obligations totaling $23,682,398, while USASpending.gov reflects grant obligations
totaling only $8,889,902. We identified 44 Recovery Act Microloan technical assistance grant
obligations totaling $14,792,496 that should have been, but were not, posted to
USASpending.gov. These grant obligations are listed in Appendix III: Recovery Act Grants Not
in USASpending.gov.

These discrepancies occurred because DPGM did not establish an adequate internal control
environment for the preparation and dissemination of Recovery Act contract award and
Microloan technical assistance grant data reported to public websites. As a result, SBA Recovery
Act contract award obligations reported to USASpending.gov and FPDS.gov were materially
understated by $21,627,140, which represents a 63% error rate. In addition, Recovery Act
Microloan technical assistance grant obligations reported to USASpending.gov were materially
understated by $14,792,496, which represents a 62% error rate. These discrepancies impaired the
integrity and reliability, and limited the usefulness of SBA Recovery Act data made available to
the public. Additionally, the Agency was not compliant with data quality provisions that are
mandated by the Transparency Act.

Data Quality Reviews Did Not Identify All Obvious Errors, Ensure That Recipients
Corrected Errors, or Verify Whether Subcontractor Information Had Been Reported

SBA reviews of recipient reports did not surface visible and recurring data quality issues.
OMB guidance states that agencies must ensure the information provided in Section 1512
recipient reports is consistent with the award and the agency review is intended to identify
"significant errors" or "material omissions" in these reports. Panum and OCA personnel
performed data quality reviews over information reported by the recipients of SBA Recovery
Act funds and released the recipients' reports in FederalReporting.gov. However, significant
reporting errors and material omissions were not always identified during these reviews or
subsequently corrected by the recipients.


8 SBA Recovery Act Weekly Financial Report for periods ending 9/30109 and 9/30110 posted on www.Recovery.gov. Total contract obligations
   are $39,845,874. Of that total, $34,450,121 represents contract obligations net of payroll, employee reimbursements, travel, lP Morgan Chase
   transactions and other federal agencies.
9 Of the $l3,518,l35 reported to those sites, l3 actions totaling $695,157 were reported to USASpending.gov and FPDS.gov as Recovery Act in
   error. Therefore, this amount represents the corrected total that should have been reported to those sites ($l3,518,l35 less $695,157). See
   Appendix II: Awards Erroneously Reported to USASpending.gov and FPDS.gov as Recovery Act.
                                                                                                 5

While performing our test work over information reported by recipients, we identified errors that
had not been detected or revealed by Panum or OCA personnel during their data quality reviews.
These errors included: missing or incorrect SBA award numbers; a missing street address; an
incorrect funding agency code; unclear or overly general award descriptions such as "SBA 8A
sole source," "work to be accomplished," "communications" and "SBAHQ-09-CC-0026 for US
SBA;" and unclear descriptions ofjobs created. The information provided in these description
fields of the report did not provide transparency on the use of funds .

In addition, recipients were notified of additional errors that were not noted above. Panum
notified contractors of an erroneous Treasury Appropriation Symbols (TAS) and government
contracting officer code. Personnel from OCA notified intermediaries of incorrect loan numbers,
total amount of sub-awards to individuals, percentage of completion regarding project status,
activity code, and award dates, yet recipients did not correct this information.

Lastly, Panum did not verify whether subcontractor information had been reported to
FederalReporting.gov. For example, DPGM executed awards with Copper River Information
Technology, LLC and Isika Technologies to procure Dell computers, Microsoft software and
licenses, and other computer equipment and supplies for the development ofSBA's Customer
Relationship Management System (CRM). However, neither contractor reported on subsequent
awards or funds paid to those companies in FederalReporting.gov. These contractors had not
fully complied with Section 1512 reporting requirements. According to Panum personnel, they
did not fully understand the scope of any given contract to validate whether a prime was
accurately reporting the use of subcontractors.

We concluded that errors continued to exist and were uploaded to other public websites because
neither Panum nor OCA personnel took actions to ensure that contractors and intermediaries had
corrected errors prior to releasing the reports in FederalReporting.gov. Also subcontractors had
not reported on the use of Recovery Act funds due to the lack of procedures and oversight by
DPGM and Panum personnel to ensure that use of funds for both prime and subcontractors were
reported to FederalReporting.gov. These deficiencies led to information that could possibly
mislead the public or fail to provide sufficient information to discern the award's purpose and
activities.

The implementation of the Transparency Act has brought about a need to provide the public with
an unprecedented level of transparency into how federal dollars are being spent and will help
drive accountability for the timely, prudent, and effective spending of federal dollars. Until such
time that SBA develops and implements a sound data quality framework, significant reporting
errors and data inconsistencies will continue to exist in data reported on public websites.

DPGM Did Not Provide Adequate Oversight of its Contractor Activities

Although Panum's contract stipulated that the contractor prepare a procedural document (step by
step) on recipient reporting requirements, Panum had not done so. This occurred because
DPGM's contract monitoring process did not ensure that Panum adhered to the terms of its
contract or delivered the procedural notice as required by OMB guidance. The OIG previously
identified this need, and to correct this weakness DPGM agreed to develop a procedural notice
that specified Agency and contract award recipients' roles and responsibilities. Rather than issue
this notice and develop related procedures, DPGM included the creation of this notice and
procedures in the statement of work for Panum. We found that Panum had not developed the
notice and operating procedures. During interviews, Panum personnel told us they were not
                                                                                                  6

aware of the requirement to develop the procedural notice and they were not sure who the actual
DPGM point of contact was for this task.

While the implementation of processing standards and procedures do not guarantee that all
significant errors and material omissions will be prevented, they facilitate communication
between SBA and contractors, and provide a basis for SBA to assess contractor compliance with
the Section 1512 provisions.

RECOMMENDATIONS:

We recommend the Chief Financial Officer:

   1. 	 Research the $21,627,140 in Appendix I to determine whether the award has been made
        or the funds should be de-obligated. This research should result in these actions being
        posted to FPDS .gov.

   2. 	 Utilize PRISM and JAAMS reports and perform routine reconciliation of executed
        awards to awards posted in FPDS .gov. This will ensure that awards are timely
        transmitted in PRISM and corresponding awards in FPDS .gov and USASpending.gov are
        accurate and complete.

   3. 	 Deploy an independent statistical verification and validation of all SBA contracts 

        awarded and subsequently reported to FPDS.gov. 


   4. 	 Research the $695,157 in Appendix II to determine the disposition of these awards and
        whether Recovery Act obligations were actually used to fund the awards. If not, these
        awards need to be corrected in PRISM, FPDS .gov, and the contract files .

   5. 	 Develop and implement a data quality plan that documents processes to ensure timely,
        accurate, and complete submission of contract data to USASpending.gov.

   6. 	 Take immediate action to remedy Panum Telecom LLC's nonperformance on the 

        contract. 


   7. 	 Implement continuous monitoring procedures to ensure that contractor-reported
        information is correct and accurate, and that all prime contractors are accurately reporting
        the use of subcontractors.

We also recommend also the Associate Administrator for Management and Administration:

   8. 	 Research and resolve the $14,792,496 discrepancy shown in Appendix III to determine
        whether the award has been made or the funds should be de-obligated.

   9. 	 Deploy vigorous quality controls such utilizing system generated reports to ensure that
        grant awards are validated and released prior to transmitting grant data to
        USASpending.gov.

   10. Perform periodic reviews of grant data reported to USASpending.gov to ensure that data
       is accurate and complete in compliance with the Transparency Act.
                                                                                                 7

    11. Work collaboratively with the CFO to develop and implement a data quality plan that
        documents processes to ensure timely, accurate and complete submission of grant data to
        USASpending.gov.

Lastly, we recommend the Associate Administrator for the Office of Capital Access:

    12. Implement continuous monitoring to ensure that intermediary-reported information is
        correct and accurate.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

On March 4,2011, we provided a draft of this report to SBA for comment. On March 18,2011,
the CFO, Associate Administrator for M&A and OCA's Director of Financial Assistance
provided written comments, which are contained in their entirety in Appendices IV, V and VI.
SBA agreed with the findings and concurred with all of the recommendations. A summary of
management's comments follows.

Recommendations 1-7

The CFO concurred with the finding and agreed to implement the recommendations. Refer to
Appendix IV.

Recommendations 8-11

The Associate Administrator for M&A concurred with the finding and recommendations. Refer
to Appendix V.

Recommendation 12

The OCA's Director of Financial Assistance concurred with the finding and also agreed to
implement the recommendation. See Appendix VI.

OIG Response

While the Associate Administrator for M&A concurred with the recommendations, no actions
were proposed to address the recommendations. Therefore, we do not consider these comments
to be fully responsive.

ACTIONS REQUIRED

Please provide your management response for each recommendation on SBA Form 1824,
Recommendation Action Sheet, within 30 days from the date of this report. Your responses
should identify the specific actions taken or planned to fully address each recommendation and
the target dates for completion.

We appreciate the courtesies and cooperation of the Agency officials during this audit. If you
have any questions concerning this report, please call me at (202) 205-6586, or Jeffrey R.
Brindle, Director Information Technology and Financial Management, at (202) 205-7490.
                                                                                        8


APPENDIX I: RECOVERY ACT CONTRACT AWARD OBLIGATIONS NOT IN
                      USASPENDING.GOV AND FPDS.GOV


                                                                          Total
 #                                                                      Obligations
          PO Invoice                Vendor Name           Posted Date     SUM
 1    0503511QRAOO12      APEX ENGINEERED SOLUTIONS        09/25/10      $158,000.00
 2    0503511QRAOO12      APEX ENGINEERED SOLUTIONS        09/25/10      $592,000.00
 3    0503511QRAOO12      APEX ENGINEERED SOLUTIONS        09/25/10      $750,000.00
 4    0503511QRAOO12      APEX ENGINEERED SOLUTIONS        09/25/10     $1,250,000.00
 5    0503511QRAOO13      BRILLIENT CORPORATION            09/25/10         $6,59l.76
 6    0503511QRAOO13      BRILLIENT CORPORATION            09/25/10      $250,000.00
 7    0503511QRAOO13      BRILLIENT CORPORATION            09/25/10      $385,000.00
 8    0503511QRAOO13      BRILLIENT CORPORATION            09/25/10      $615,000.00
 9    0503511QRAOO13      BRILLIENT CORPORATION            09/25/10      $750,000.00
 10   0501001 QRAOOO 1    CATAPULT CONSULTANTS, LLC        07/06/10          $59l.00
 11   0501001 QRAOOO 1    CATAPULT CONSULTANTS, LLC*       07/06/10         $2,12l.00
 12   0503300QRA006       CDFI COALITION                   06/15/10         $1,000.00
 13   0205070RAT0196      CITY OF BROOKLYN CENTER          09/14/10         $3,590.00
 14                       COACHELLA V ALLEY ECONOMIC
      0205070RATOI0l      PARTNERSHIP                      04/05/10         $4,994.99
 15   0501001 QRAOO03     COLSON SERVICES CORP             09/24/10      $700,000.00
 16   0501001 QRAOO03     COLSON SERVICES CORP             09/24/10      $900,000.00
 17   0501001 QRAOO03     COLSON SERVICES CORP             09/24/10     $2,074,700.00
 18   0304010QRA0020      COMPU DYNAMICS, LLC              09/20/10      $349,076.00
 19                       COPPER RIVER INFORMATION
      030401 OQRAOO 18    TECHNOLOGY, LLC                  08/27/10       $75,730.l4
 20   9205040RAQOOO 1     CORPORATE VISIONS INC            05/15/09         $9,680.00
 21   0205070RAT0209      COSE GROUP SERVICES,INC          09/23/10         $6,500.00
 22   0503300QRAOOOIA     CREDIT BUILDERS ALLIANCE, INC    02/25/10       $87,740.00
 23   0205070QRAO 188     DAVE LINDEN GROUP, INC           09/03/10         $7,310.00
 24   0304010QRA0021      DELLMKTGLP                       09/02/10      $998,552.12
 25                       DIAMOND INFORMATION SYSTEMS
      0304010QRAOO08      LLC                              09/20/10       $87,429.00
 26                       DIAMOND INFORMATION SYSTEMS
      0304010QRAOO08      LLC                              09/20/10      $300,000.00
 27   9304050Q0082        DIGITAL MANAGEMENT INC           09/25/09       $20,843.56
 28   03040 10QRAOO 17A   DIGITAL MANAGEMENT INC           09/10/10       $60,94l.76
 29   0304010QRAOO17B     DIGITAL MANAGEMENT INC           09/10/10      $182,825.28
 30   0304010QRAOO09      DIGITAL MANAGEMENT INC*          06/15/10         $3,700.00
 31   0205010QRAOO04      DRT STRATEGIES                   09/29/10       $12,075.00
 32   030401 OQRAOO 13    DRT STRATEGIES                   08/25/10      $260,000.00
 33   030401 OQRAOO 13    DRT STRATEGIES                   08/25/10      $351,146.00
                                                                                               9

 34   030401 OQRAOO 13           DRT STRATEGIES                   08/25/10       $50,877.00
 35   9501001 QRAOO05            DUN & BRADSTREET INC             08/12/09      $250,000.00
 36   050201 OQRAOOO 1           DUN & BRADSTREET INC             09/25/10      $837,470.00
 37                              EQUIFAX INFORMATION SERVICES
      9501001 QRAOO02            LLC                              07/13/09          $500.00
 38   9208060QRA0056             ERNST & YOUNG LLP PNC BANK       OS/26/09       $51,775.00
 39   9501001 QRAOOO 1           EXPERIAN                         08/10/09       $53,163.00
 40   0208060QRAOOO 1A           FI CONSULTING                    09/19/10       $10,000.00
 41   0208060QRAOOO 1A           FI CONSULTING                    09/19/10       $90,000.00
 42                              GLOBAL EXPERIENCE
      0205070QRA0173             SPECIALISTS,INC                  07/21/10         $5,502.00
 43   0205070RAT0194             IMPERIAL PALACE OF MS            08/27/10         $4,635.40
 44   9304010QRAOO05             ITECHNOLOGIES, INC               09/28/09      $127,740.00
 45   0208090QRA002A             KEARNEY & COMPANY                08/25/10         $9,835.08
 46   0802000QRA200 1A           KPMGLLP                          09/14/10      $1 46,080.00
 47   0205070QRAO 187            KRIKORIAN MARKETING GROUP        08/26/10         $7,000.00
 48   0504010QRA0028             MARRIOTT INTERNATIONAL, INC      09/21/10       $25,000.00
 49                              METROPOLITAN PIER & EXPOSITION
      0205070QRAOl72             AUTHORITY                        09/28/10         $5,927.35
 50                              MULHEARN WILSON
      0304010QRAOO03             CONSTRUCTORS,INC                 03/23/10         $9,675.00
 51                              NATIONAL ASSOCIATION OF
      0205070RAT0195             GOVERNMENT GUARA                 09/07/10         $6,500.00
 52   0504010QRA0025             O-H COMMUNITY PARTNERS, LTD      09/22/10     $1,500,000.00
 53   0304010QRA0022             ONE SOURCE GROUP, INC            09/25/10      $400,000.00
 54   0303010QRAOO02             PANUM TELECOM LLC                09/29/10      $143,419.60
 55   0303010RAQOOOl             PANUM TELECOM LLC                07/09/10      $321,899.71
 56   0205070QRA0174             PRODUCTION RESOURCE GROUP LLC    07/21/10       $15,008.00
 57   0504010QRAOO27B            REI SYSTEMS, INC                 09/22/10      $913,860.28
 58   0504010QRA0026C            REI SYSTEMS, INC                 09/23/10     $1,078,304.00
 59   0802000QRA2003             RER SOLUTIONS                    02/19/10      $600,000.00
 60   0802000QRA2003             RER SOLUTIONS*                   02/19/10       $61,599.00
 61                              ROCK CREEK PUBLISHING
      0504010QRA0024A            GROUP, INC                       09/22/10      $475,000.00
 62   0304030MRA0144             SRI INTERNATIONAL CORP           09/21/10      $863,987.91
 63   0208070QRA0025             SRACORP                          04/12/10      $120,000.00
 64   0208070QRAOO 19            SRACORP                          06/06/10      $800,398.00
 65   9208060QRA0051             TOUCHSTONE GLOBAL LLC            08/05/09      $196,075.00
 66   030401 OQRAOO 19           TVAR SOLUTIONS, LLC              09/01/10     $1,188,770.86
                                                                      Total   $21,627,139.80

* Remaining from partially funded PO
                                                                                                                      10

APPENDIX II: AWARDS ERRONEOUSLY REPORTED TO USASPENDING.GOV 

                 AND FPDS.GOV AS RECOVERY ACT 

      Source: Awards Reflected in USASpending.gov and FPDS.gov, By Vendor Name                 JAAMS

  #    Contract Number            Vendor Name               Post        Dollars               Disposition
                                                            Date       Obligated
  1    SBAHQI0F0147       CITRIX SYSTEMS INC              5/19/2010      $5,800.00      Obligation for this amount
                                                                                                     was not found
  2    SBAHQI0M0158       CITRIX SYSTEMS, INC.            5/14/2010     $27,095. 19    Salaries and Expenses Fund
                                                                                                              0100

  3    SBAHQ 1OM0203      CQ-ROLL CALL, INC.              6/30/2010      $4,200.00     Salaries and Expenses Fund
                                                                                                             0100
  4    SBAHQM0116         EDWARDS & HILL                  9/15/2009      $5,183.53       Obligation for this amount
                          COMMUNICATIONS                                                             was not found
  5    SBAHQ09DOO 17      FUENTES FERNANDEZ AND           5/12/2010    $242,992 .50    Salaries and Expenses Fund
                          COMPANY PSC                                                                      XOI00

  6    SBAOO12            ISlKA TECHNOLOGIES INC          5/19/2010      $6,696.00     Salaries and Expenses Fund
                                                                                                           XOI00
  7    SBAOO11            ISIKA TECHNOLOGIES INC          5/14/2010     $25,300.00       Obligation for this amount
                                                                                                     was not found
  8    SBAHQ09C0040       KAUFFMAN & ASSOCIATES,          7/02/2010   ($100,000.00)   De-obligation for this amount
                          INC.                                                                       was not found
  9    SBAHQ07M0522       NINETEEN INCORPORATED           5/18/2010     $68,640.00     Salaries and Expenses Fund
                                                                                                             0100

 10    SBAHQ05DOO09       TKC INTEGRATION SERVICES        6/15/2009     $73,575.00     Salaries and Expenses Fund
                          LLC                                                                                0200

 11    SBAHQ09CCOO03      TKC INTEGRATION SERVICES        8/17/2009      $9,672.00       Obligation for this amount
                          LLC                                                                        was not found
 12    SBAHQ04F0228       TOUCHSTONEGLOBAL                6/29/2010   ($91,496.73)    De-obligation for this amount
                                                                                                     was not found
 13    SBAHQ09C0021       WASHINGTON PRODUCTS              4/8/2010    $4 17,500.00          Vendor was not found
                          AND SERVICES, INC.


                                                              Total    $695, 157.49
                                                                                                11

APPENDIX III: RECOVERY ACT GRANTS NOT IN USASPENDING.GOV 


kg.lim. 
OBLIGATION        AWARD DATE          VENDOR NAME
             116,118.00      5/6/2010 10:48    ENTERPRISE DEVELOPMENT CORPORATION
       2     121 ,949.00     5/6/2010 10:30    STRUCTURED EMPLOYMENT ECON DEV CO
       3     139,195.00      5/17/20108 :03    NORTHERN MAINE DEV COMMISSION 1
       4     141 ,287.00     5/17/20107:57     BUSINESS INVEST IN GROWTH INC
       5     144,597.00      5/25/20107 :28    LATINO ECONOMIC DEVELOPMENT CORPORATION
       6     153,161.00      6/14/20109:10     ECONOMIC DEVELOPMENT CORPORATION OF SAN JUAN
       7     154,293.00      8/3/2010 13:18    ADIRONDACK ECONOMIC DEVELOPMENT CORP
       8     156,445.00      5/25/2010 7:33    RURAL ENTERPRISES OF OKLA INC
       9     175,351 .00     5/17/20108 :13    SOUTHERN MINNESOTA INITIATIVE FOUNDATION
      10     183,107.00      5/6/201010:47     WEST CENTRAL NEBRASKA DEV DIST
                                               MOUNTAIN ASSOCIATION FOR COMMUNITY ECONOMIC
      11     189,123.00      6/14/20108 :49    DEVELOPMENT
      12     189,745.00      5/6/2010 10:23    BOC CAPITAL CORPORATION
      13     197,636.00      5/6/2010 10:49    CENTER FOR COMMUNITY DEV INC
      14     204,938.00      5/12/2010 6:54    ANDROSCOGGIN VALLEY COUNCIL OF GOVERNMENTS
      15     206,862 .00     6/14/20108 :40    COMMUNITY FIRST FUND
      16     244,755.00      5/26/2010 8:29    LAKE AGASSIZ REGIONAL DEV CORP 1
      17     246,028.00      5/12/20106 :49    COMM DEV CORP LONG ISLAND
      18     246,590.00      5/6/2010 10:39    WASHINGTON CO COUNCIL ECON DEV
      19     247,399.00      6/14/20109 :01    NORTHERN ECON INITIATIVES CO
      20     258,366.00      5/6/2010 10:32    CA COASTAL RURAL DEV CORP
      21     259,177.00      6/14/20109 :04    WESTERN MASSACHUSETTS ENT FUND
      22     271 ,670.00     5/5/2010 11 :25   SMALL BUSINESS ASSISTANCE CO
      23     293,957.00     5/20/201010 :39    CENTER FOR EMPOWERMENT & ECONOMIC DEVELOPMENT
      24     296,792.00       5/6/2010 6:44    VALLEY ECONOMIC DEV CENTER INC

      25     319,386.00      5/17/20108 :12    SAN ANTONIO LOCAL DEV CO SOUTH TEXAS BUSINESS FUND
      26     328,333.00      5/17/20108:18     NORTHERN COMM INVESTMENT COR
      27     353,307.00      5/25/20107 :41    NORTHEAST ENTREPRENEUR FUND IN
      28     357,064.00      5/14/20108:46     BUSINESS LOAN FUND OF THE PALM BEACHES INC
      29     366,597.00      5/6/2010 10:51    SOUTH EASTERN ECONOMIC DEVELOPMENT CORP CORP
      30     367,288.00      5/6/2010 10:43    OBDC SMALL BUSINESS FINANCE
      31     398,826.00      6/14/20108 :37    KENTUCKY HIGHLANDS INVESTMENT
      32     407,574.00      5/12/2010 7:01    ACCION TEXAS INC
      33     418,007.00      5/11/20108 :18    COMM ECONOMONIC DEV FUND FOUNDATION
      34     452,810.00      5/12/2010 6:49    COMM DEV CORP LONG ISLAND
      35     462,498.00      6/14/20108 :53    CONNECTICUT COMMUNITY INVESTME
      36     463,929.00      6/14/20109:07     WISCONSIN WOMENS BUSINESS INIATIVE CORPORATION
      37     466,386.00      6/21/20108 :23    COASTAL ENTERPRISES INC
      38     518,979.00      6/14/20108:27     CENTER FOR RURAL AFFAIRS
      39     588,825.00      5/17/20108 :07    RICHMOND ECON DEV CORP
      40     619,551.00      5/19/2010 8:42    TRENTON BUSINESS ASST CORP
      41     663,222 .00     5/17/20107 :50    BRIDGEWAY CAPITAL
      42     730,923.00      5/6/2010 10:40    COMMUNITY VENTURES CORP




-
      43     826,511 .00     5/6/201014 :59    COLORADO ENTERPRISE FUND
      44     843,939.00      5/17/20107:59     UNION COUNTY ECONOMIC DEVLP
           14,792,496.00
APPENDIX IV: CFO COMMENTS



                             u.s. SMALL BUSINESS ADMINISTRATION
                                        VVASHn.OTON,D.C.20416




   To: 	     Peter L. McClintock
             Deputy Inspector General

   From: 	 Jonathan 1. GaJlWer [FOrA ex.     6]
           Chief Financi;,,! GfTIcer

   Date: 	 March 18, UJll

   Re: 	      Draft Report, Quality of SBA's Recovery Data on Public VVebsites, Project
              Number 11501 - Response to Recommendation Nos. 1-7


   VVe appreciate the opportunity to review your draft audit entitled "Quality of SBA' s
   Recovery Data on Public VVebsites." The Office of the Chief Financial Officer (OCFO)
   has reviewed the findings and contracting-related recommendations of Project 11501 and
   is providing a written response to recommendations 1 through 7.

   As noted in the Draft Report, this report reviews contracting actions taken prior to the
   realigmnent of the Acquisition Division under the OCFO. Since this reorganization the
   OCFO has talcen a number of steps to address Data Quality issues including:

           • 	 Ending SBA's contract with Panum Telecom LLC
           • 	 Beginning the process to hire an Independent Verification and Validation 

               Contractor 

           • 	 VVorking with the Office of Management and Budget (OMB) to address Data
               Quality issues


    Recommendations and Responses

    In addition to these general comments above the OCFO has prepared responses to the
    seven contracting-related recommendations made in the report.


           1. 	 We recommend that the Chief Financial Officer research the $21,627,140 in
              Appendix 1 to determine whether the award has been made or the funds
              should be deobligatcd. This research should result in these actions being
              posted to FPDS.gov.
   Concur. A secondary analysis has already identified nearly $5 million as being
   accurately reflected in FPDS. The Acquisition Division will research the status of
   the items listed in Appendix 1. The Acquisition Division will verify that these
   actions have been posted in FPDS, post them in FPDS, or deobligate funds as
   necessary.


2. 	 We recommend that the Chief Financial Officer utilize PRISM and JAAMS
     reports and perform routine reconciliation of executed awards to awards
     posted in FPDS.gov. This will ensure that awards are timely transmitted in
     PRISM and corresponding awards in FPDS.gov and USASpending.gov are
     accurate and complete.


   Concur. The Acquisition Division is working with the Office of Financial
   Systems to draft new edit checks to apply to data before it is transferred to FPDS.
   These edit checks will be completed by January 1, 2012 and are detailed in the
   revised Data Quality Plan (see attached).


3. 	 We recommend that the Chief Financial Officer deploy an independent
     verification and validation of all SBA transactions awarded and subseqnently
     reported to FPDS.gov


   Concur. The OCFO is hiriog a contractor to perform independent verification and
   validation checks ofFPDS data elements identified in cooperation with OMB.
   This contract will be io place by May 2011. After the initial data quality check is
   complete OCFO will examine the feasibility of pursuing a larger data quality
   check based on available resources.


4. 	 We recommend that the Chief Financial Officer research the $695,157 in
     Appendix 2 to determine the disposition of these awards and whether
     Recovery Act funds were actualiy nsed funds in the awards. If not, these
     awards need to be corrected in PRISM, FPDS.gov and the contract fLIes.


    Concur. The Acquisition Division will research the Obligations in Appendix 2 to
    determine whether Recovery Act funds were used, and will malce appropriate
    corrections in FPDS, PRlSM and the contract files.


5. 	 We recommend that the Chief Financial Officer fully develop and implement
     a data quality plan that documents-processes to ensure timely, accurate and
   complete submission of contracts data to USASpending.gov.


   Concur. The OCFO revised the contracts section of its Data Quality Plan in
   February 2011 to address Data Quality issues identified by the OCFO and past
   Office of the Inspector General Reports. A copy of the revised plan is attached.


6. 	 We recommend that the Chief Financial Officer take immediate action to
     remedy Panum Telecom LLC's nonperformance on the contract.


   Concur. The OCFO has ended its contract with Panum Telecom LLC. Panum
   Telecom LLC will stop providing services on March 31, 2011.


7. 	 We recommend that the Chief Financial Officer implement continuous
     monitoring procedures to ensure that contractor-reported information is
     correct and accurate, and that all prime contractors are accurately reporting
     the use of subcontractors.


    Concur. The OCFO revised the contracts section of its Data Quality Plan in
    February 2011 to address Data Quality issues identified by the OCFO and past
    Office of the Inspector General Reports. A copy of the revised plan is attached.
APPENDIX V: M&A COMlYLENTS



                             U.S. SMALL BUSINESS ADMINISTRATION
                                      WASHINGTON, DC 20416




    Date:          March 18,2011

    To:            Peter McClintock
                   SBA beputy Inspector General

    From:          David Robbins [FOIA ex. 6]
                   Associate Administrator for Management & Administration (M&A)

    Subject:       M&A's Response to Project No. 11501: Quality of Recovery Act
                   Data on Public WebsiteS



         We appreciate the opportunity to review your draft audit entitled "Quality
    of SBA's Recovery Data on Public Websites." The Office of Management &
    Administration (OM&A) has reviewed the findings and grants management related
    recommendations of Project 11501 and is providing a written response to
    recommendations 8 through 11.

               8. 	 Research and resolve the $14,792,496 discrepancy shown in
                    A~pendix 3 to determine whether the award has been made or the
                    funds should be de-obligated.

                   Cohcur.

               9. 	 Deploy vigorous quality controls such as utilizing system generated
                    reports to ensure that grant awards are validated and released prior
                    to transmitting grant data to USASpending.gov.

                   Concur.

               10. 	Perform periodic reviews of grant data reported to USASpending.gov
                    to ensure that data is accurate and complete in compliance with the
                    Transparency Act.

                   Concur.

               11. 	 Work coflaboratively with the CFO to develop and implement a data
                     quality plan that documents processes to ensure timely, accurate
                     and complete submission of grant data to USASpending.gov.

                   Concur.
APPENDIX VI: OCA COMMENTS



                           U.S. SMl"U. BUSINESS ADJ\4fNtST'RA'fION
                                    \N.ii}3HINGTOM~ D.C~   2()4iS




 Date:   March 18,2011

 To: Peter McClintock
    SBA Deputy Inspector (Jeneral

 From: Grady Hedgespeth [FOrA ex. 6]
    Director Office of Filiancia! 'Assistance


 Subject: Agency Response to Project No. 11501: Quality of Recovery Act Data on PllbIic
 Websites

    In response to your March 4, 2011 report on data ql!!l!ily, the Office ofCt>pital Access
 concurs with the OIG recommendation to implement continuous monitoring ofintermcdiary­
 reported infonnation. We have stepped up our efforts to monitor these data and are in the
 process of automating several aspects ofthe review.
